LIMITED AUDIT OF THE FISCAL YEAR 2007
    FEDERAL MANAGERS’ FINANCIAL
     INTEGRITY ACT SECTION 2 AND
  SECTION 4 ASSURANCE STATEMENTS
  REPORT NUMBER: A070205/A/F/F08003
          NOVEMBER 9, 2007
                               RESULTS OF AUDIT

In reviewing management and systems control weaknesses reported in the
FMFIA Section 2 and Section 4 Assurance Statement questionnaires from GSA
senior management, we identified that the Agency senior officials reported
weaknesses in the following areas: Budgetary Reporting, Non-compliance with
Federal Financial System Requirements and Internal Control Issues at the
Heartland Region. PricewaterhouseCoopers (PwC) also identified budgetary
reporting deficiencies regarding unfilled customer orders and undelivered
customer orders as well as information systems deficiencies relating to system
access, segregation of duties and monitoring controls. The PwC issues will be
reported as significant deficiencies in their audit report. The OIG audits identified
issues relating to the Federal Information Security Management Act (FISMA).
Specifically, information systems tested were not adequately secured and
required background investigations were not completed for contractors. Also, the
Government Accountability Office (GAO) had reported relevant GSA operational
deficiencies.

Budgetary Reporting

The Chief Financial Officer (CFO) and the Deputy CFO have identified budgetary
accounts as an area of concern in their Fiscal Year 2007 Section 2 Assurance
Statement questionnaires. PwC has also identified budgetary findings regarding
undelivered orders and unfilled customer orders during their review of GSA’s
Financial Statements. Specifically, during the internal control testing phase of
their Audit of GSA’s Financial Statements, PwC determined that controls
surrounding the Public Buildings Service (PBS) unfilled customer orders and
undelivered orders were ineffective. As a result, PBS performed statistical
sampling of its budgetary accounts to validate the reported year-end balances.
In turn, PwC performed further testing on these statistical samples to
substantiate PBS’s budgetary account balances. This issue will be classified as
a significant deficiency in the FY 2007 Financial Statement audit report.

Noncompliance with Federal Financial System Requirements

The CFO, Deputy CFO, and the Director of Financial Management Systems
issued qualified Section 4 Assurance Statements due to non-compliance with
Federal Financial System Requirements. The rationale behind the qualification,
in part, was a continuation of the prior year Assurance Statement reporting with
(1) room for improvement in the area of Unfilled Customer Orders and
Obligations, (2) the lack of integrated feeder systems for Pegasys, and (3)
inconsistent data elements from the feeder systems. Additionally, internal
controls for Construction in Process were reported as complex and inefficient.




                                         2
Also, the OMB Circular No. A-123 review perform by Cotton and Company LLP
noted that the Visual Imaging Tracking and Processing (VITAP) and Regional
Business Application (RBA) systems were classified as high-risk.

Internal Control Issues at Heartland Region

As reported in the Heartland Region’s Section 2 Assurance Statement, the
Regional Administrator issued a qualified assurance statement relating to internal
controls. Specifically, the assurance statement details inadequate internal
controls regarding, recoveries of prior year obligations (chargebacks) that are
difficult to trace through their systems to determine why the amounts are
chargebacks. Several million dollars in chargebacks and write-offs against
revenue has resulted in negative revenue. Also, the Global Supply Operation, a
national program located in the Heartland Region, is not following Department of
Defense’s (DoD) guidance for inter-agency transactions. Specifically, the DoD’s
guidance requires that a review be performed by a DoD contracting officer prior
to the placement of all orders over $500,000.

GSA’s Implementation of the Federal Information Security Management Act
(FISMA)

As required by law, the OIG performed the FY 2007 review of GSA’s progress in
implementing FISMA. The purpose of FISMA is to provide a framework for
securing Federal information systems. Despite the GSA Chief Information
Officer’s efforts to improve its information technology security program, it has not
been fully effective in ensuring that risks for all applications, data repositories,
and services within system boundaries are identified and mitigated. For
instance, the FY 2007 FISMA report determined that oversight of contractor-
supported systems was not comprehensive where systems were not secured.
Auditors also found that configuration management should be strengthened in
the area of configuration settings, and Agency policies and procedures are in
need of improvement in some cases.

The Pegasys System, GSA’s web-based core financial system of record, was
selected for review as part of the OIG’s annual FISMA audit. As a result of the
ongoing operational audit of Pegasys and FISMA related testing, the OIG issued
an interim report A070094/B/TF080001, Pegasys Security Controls. This interim
report found that Pegasys has security control issues in several areas:
configuration management, system and communications protection, web
application security, system and services acquisition, and awareness and
training. Due to the critical nature of these issues, the OIG issued the interim
report to management.

Furthermore, as noted in the OIG’s FY 2007 FISMA Review of GSA’s Information
Technology Security Program, controls currently in place and those planned
under HSPD-12 will not ensure that contractor background investigations are


                                           3
                    LIMITED AUDIT OF THE FISCAL YEAR 2007
                        FEDERAL MANAGERS’ FINANCIAL
                         INTEGRITY ACT SECTION 2 AND
                      SECTION 4 ASSURANCE STATEMENTS
                      REPORT NUMBER: A070205/A/F/F08003
                              NOVEMBER 9, 2007


Report Distribution                                         Copies

Administrator (A)                                             3

Deputy Administrator (AD)                                     3

Inspector General (J)                                         1

Deputy Inspector General (JD)                                 1

Assistant Inspector General for Auditing (JA)                 2

Assistant Inspector General for Investigations (JI)           1

Director, Audit Operations Staff (JAO)                        1

Audit Follow-Up and Evaluation Branch (BECA)                  1




                                          5
